3n tye

Supreme Court of tfjr WLnitzb States
IN RE ABDUL MOHAMMED, PETITIONER

On Petition for Writ of Mandamus/Prohibition to
the Executive Committee of the United States
District Court for the Northern District of
Illinois and United States Court of Appeal for
the 7th Circuit
APPENDIX TO PETITION FOR WRIT OF
MANDAMUS/PROHIBITION
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
(630) 854-5345
aamohammed@hotmail.corr

September 27, 2021

12

Case: 20-2419
Document: 76
Filed: 09/13/2021
Pages: 324
IN THE UNITED STATES DISTRICT COURT FOR NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
ABDUL MOHAMMED,
PLAINTIFF-APPELLANT
C ASE # 20-2419

vs.
PRAIRIE STATE LEGAL SERVICES INC ET.AL
DEFENDANTS-APPET.T,EES,

AMENDED MOTION FOR TRANSFER
NOW COMES, the Plaintiff Abdul Mohammed, appearing for himself as Pro Se, with his Amended Motion to
Transfer the instant case to another circuit and states as follows-:
1.

Since the entering of the United States District Court for the Northern District of Illinois’ Executive Committee’s
(hereinafter Executive Committee) illegal orders, the members of the Executive Committee, J Jorge Alonso, ]. Gary
Feinerman, Chief Judge Rebecca Pallmeyer, J.Ronald Guzman, J.Robert Gettleman, J. John Blakey, J.Iain Johnston,
Thomas Bruton, J.Frank Easterbrook, J.Michael Kanne, J.Diane Wood, J.Michael Brennan, J.Amy St.Eve, J. liana
Rover, J.Michael Scudder, J..David Hamilton, and Chief Judge Diane Sykes has harassed the Plaintiff and his three
minor children and retaliated against the Plaintiff and his three minor children as follows:

a) J.Feinerman ruled that the Plaintiffs 8-year-old son’s school can deprive Plaintiffs son of his lunch and the one or
more of the 7th Circuit judges mentioned above affirmed J.Feinerman’s ruling that Plaintiffs 8-year-old son’s school
can deprive Plaintiffs son of his lunch;
b) Further J.Feinerman dismissed Case # 19-cv-6525 when Plaintiff asked a question as follows:
“Ms. Deanes,
I have the following question forjudge Feinerman:
How come it is OK to only ban me from dropping Lunch for my son whereas other parents can drop Lunch for their
children? Please answer the above question via email either to me or to my attorney, Marco Rodriguez. Sincerely,
Abdul Mohammed”.
c)

v

Further Plaintiffs 8-year-old son has been unlawfully deprived of his lunch by his school, by J.Feinerman by members
of the Executive Committee and by the judges named above;

d) Further, all the judges and the members of the Executive Committee named above retaliated against Plaintiff and his
three minor children by threatening sanctions for filing a complaint with USDOJ as described in Exhibit-2;
e) Further, all the judges and the members of the Executive Committee named above retaliated against the Plaintiff and
his three minor children by threatening sanctions, contempt of court, and a fine of |1000.00 for filing a complaint
with Chief Judge of 7th Circuit Diane Sykes against the several judges of this court, members of the Executive
Committee and forced the Plaintiff to withdraw his complaint as described in Exhibit-2;
f)

Finally, all the judges and the members of the Executive Committee named above, retaliated against the Plaintiff and
his three minor children by having Plaintiffs home raidg^^ (j:30 AM by Naperville Police and several Federal Ag ents

Case: 20-2419

Document: 76

Filed: 09/13/2021

Pages: 324

and the Plaintiff was threatened by the Federal Agents for filing complaints against the judges and the members of
the Executive Committee named above;
g)

Further Plaintiff was threatened by Federal Agents upon orders of the judges and the members of the Executive
Committee named above, to watch out what he files against the judges named above;

h) Further Federal. Agents threatened Plaintiff during the raid to not make them come again to his home and do this in
front of his children;
i)

Further judges and the members of the Executive Committee named above, used Plaintiffs three minor children as
“human shields” to protect themselves from Plaintiffs complaints against them when the judges caused the Federal
Agents to threaten the Plaintiff “to not make them come back again to do this in front of his children”.

j)

Further, the judges and the members of the Executive Committee named above caused the raid of Federal Agents
and Naperville Police upon Plaintiffs home to threaten the Plaintiff with false arrest and false imprisonment if the
Plaintiff files any complaint against the judges and the members of the Executive Committee named above;

2.

There is active investigation pending with United States Department of Justice (USDOJ) against the members of the
Executive Committee, J Jorge Alonso,J. Gary Feinerman, ChiefJudge Rebecca Pallmeyer ,J. Ronald Guzman, J.Robert
Gettleman, J. John Blakey, J.Iain Johnston, Thomas Bruton, J.Frank Easterbrook, J.Michael Kanne, J.Diane Wood,
J.Michael Brennan, J.Amy St.Eve, J. liana Rover, J.Michael Scudder, J.. David Hamilton, and ChiefJudge Diane Sykes

3.

Further, the judges and the members of the Executive Committee named above after committing actions as described
above, represent that they are impartial when they heard matters related to the Plaintiff and his three minor children
which is nothing but preposterous;

4.

Further, the judges and the members of the Executive Committee named above entered orders against Plaintiff with
prejudice towards his race, color, religion, national origin, ancestry, ethnicity, disabilities, etc.

5.

Further, the judges and the members of the Executive Committee named above entered orders against Plaintiff in
retaliation for Plaintiffs protected activity including but not limited to complaints against the judges and the members
of the Executive Committee named above.

6.

The adverse rulings against the Plaintiff by judges and the members of the Executive Committee named above are

1

“derived from an extrajudicial source” or “reveal such a high degree of favoritism or antagonism as to make fair
judgment impossible.”Uteky, 510 U.S. at 555.

7.

“Findings by a trial judge unsupported by the record are evidence that the judge has relied on extrajudicial sources in
making such determinations indicating personal bias and prejudice.” Peacock Records, Inc. v. Checker Records, Inc., 430
F.2d 85, 89 (7,h Circuit 1970).

8.

All the rulings against the Plaintiff by judges and the members of the Executive Committee named above are treason,
violation of oath of office, judicial trespass, and fraud upon the court.

9.

Further, when Plaintiff appealed the Executive Committee’s Orders, the 7th Circuit in concert with the judges and
members of the Executive Committee named above unlawfully affirmed the Executive Committee’s Orders without
answering the questions asked by Plaintiff in his Appellant’s Brief.

App 2

Case: 20-2419

Document: 76

Filed: 09/13/2021

Pages: 324

10. Further, Plaintiff was not provided Notice and Opportunity to be heard, Adequate Record of Review and Substantive
Findings of Frivolousness and Harassment pursuant to Ringgold-Lockbart v. County oflJ)S Angeles, No. 11 -57231 (9th Cir.
2014), before the Executive Committee entered orders against the Plaintiff.
11. Further, the,7th Circuit remained silent on Bdnggold-Lockharl v. County ofLos Angeles, No. 11-57231 (9th Cir. 2014) when
it affirmed the Executive Committees Orders against the Plaintiff.
12. Further, most of the cases filed by Plaintiff in the United States District Court for the Northern District of Illinois
(hereinafter District Court) cannot be taken into account when entering restricting orders against Plaintiff pursuant
to Goolsby v Gon^ale^ Case # ll-cv-00494-LJO-C7SA-PC, (E.D.Cal).
13. Further many of the cases filed in the District Court in which the Plaintiff is involved were removed by the Defendants
to the District Court from State courts and such cases can also be not taken into account when entering restricting
orders against the Plaintiff pursuant to Goolsby v Gonysley Case # 11 cv-00494-LJO-GSA-PC, (E.D.Cal).
14. Further, when Plaintiff appealed the dismissal of Case # 18-cv-8393, the 7th Circuit in concert with the judges and
members of the Executive Committee named above unlawfully affirmed J.Feinerman’s judgment which dismissed the
case as a sanction without answering Plaintiffs questions.
15. Further, Case # 20-cv-50133 was dismissed under Rule 8 without allowing the Plaindff to amend his complaint after
the court invoked Rule 8 violation in violation of various decisions of the 7th Circuit court and other Circuits, by
J.Johnston in concert with the judges and the members of the Executive Committee named above in retaliation for
his lawsuit against J.Johnston and several other judges of this court and the 7th Circuit.
16. Further, when Plaindff unknowingly appealed an order from NLRB, the 7th Circuit entered sanctions against Plaindff
in concert with the judges and members of the Executive Committee named above despite Plaintiffs representation
to the Th Circuit that he did not know that NLRB’s Order cannot be appealed.
17. Litigiousness alone is not enough, either: “‘The plaintiffs claims must not only be numerous but also be patently
without merit.’” Molskl, 500 F.3d at 1059 (quoting Moy, 906 F.2d at 470).
18. Already a judge (J.Tharpe) of the District Court has refused to follow Executive Committee’s illegal orders against
the Plaintiff.
19. Judge Tharpe has not sent Mohammed v 7-Mobile USA Inc, Case # 21-cv-2706 to the Executive Committee for review
as he does not feel that cases removed by the Defendants from the State Courts to District Court can be reviewed by
the Executive Committee.
20. Plaintiff has informed Judge Tharpe about the existence of the Executive Committee Orders against him, and Judge
Tharpe has acknowledged that he is aware of the Executive Committee Orders against Plaintiff.
21 - Further denial of this Motion will also be considered another count of retaliation against Plaintiff by the judges and
the members of the Executive Committee named in the pending complaint with USDOJ and will be reported to
USDOJ.
22. Further denial of this Motion will be considered another violation of 18 U.S.C. Sections 1512 and 1513.

App 3

Case: 20-2419

Document: 76

Filed: 09/13/2021

Pages: 324

23. The actions of the judges and the members of the Executive Committee named above were intentionally committed
to cause a physical and mental injury to Plaintiff and his three minor children and such actions have caused extreme
physical and mental injury to Plaintiff and his three minor children.
24. Plaintiffs minor children live in constant fear of early morning raids by Federal Agents and the Naperville Police.
25. Based on the arguments made above all the judges of the 7th Circuit are disqualified to hear any matter involving the
Plaintiff or his three minor children.
26. Christianson v. Colt Industries Operating Cop., 486 U.S. 800, 819 (1988), the court explained that “if a transferee court can
find the transfer decision ‘plausible,’ it should accept jurisdiction.”
27. Pursuant to Christianson v. Colt Industries Operating Corp., 486 U.S. 800, 819 (1988) this case can be transferred to another
circuit.
Wherefore, for the foregoing reasons, Plaintiff prays to this court.
a)

Enter an order transferring this case to another circuit that shares a border with the 7th circuit;

b) Enter an Order for any such other relief as the court may deem just and proper.

Dated-: 09/13/2021

Respectfully Submitted,

/s/Abdul Mohammed,
Pro Se Plaintiff,
258 East Bailey Rd, Apt C,
Naperville, IL 60565

App 4

Case: 21-1591
Document: 15
Filed: 09/13/2021
Pages: 324
IN THE UNITED STATES DISTRICT COURT FOR NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
ABDUL MOHAMMED,
,

PLAINTIFF-APPELLANT
CASE #21-1591

vs.
DAN BRIDGES ET.AL
DEFENDANTS-APPELLEES,

AMENDED MOTION FOR TRANSFER
NOW COMES, the Plaintiff Abdul Mohammed, appearing for himself as Pro Se, with his Amended Motion to
Transfer the instant case to another circuit and states as follows-:
1.

Since the entering of the United States District Court for the Northern District of Illinois’ Executive Committee’s
(hereinafter Executive Committee) illegal orders, the members of the Executive Committee, J.Jorge Alonso, J. Gary
Feinerman, Chief Judge Rebecca Pallmeyer, J.Ronald Guzman, J.Robert Gettleman, J. John Blakey, J.Iain Johnston,
Thomas Bruton, J.Frank Easterbrook, J.Michael Kanne, J.Diane Wood, J.Michael Brennan, J.Amy St.Eve, J. liana
Rover, J.Michael Scudder, J..David Hamilton, and Chief Judge Diane Sykes has harassed the Plaintiff and his three
minor children and retaliated against the Plaintiff and his three minor children as follows:

a) J.Feinerman ruled that the Plaintiffs 8-year-old son’s school can deprive Plaintiffs son of his lunch and the one or
more of the 7rh Circuit judges mentioned above affirmed J.Feinerman’s ruling that Plaintiffs 8-year-old son’s school
can deprive Plaintiffs son of his lunch;
b) Further J.Feinerman dismissed Case # 19-cv-6525 when Plaintiff asked a question as follows:
“Ms. Deanes,
I have the following question forjudge Feinerman:
Flow come it is OK to only ban me from dropping Lunch for my son whereas other parents can drop Lunch for their
children? Please answer the above question via email either to me or to my attorney, Marco Rodriguez. Sincerely,
Abdul Mohammed”.
c)

Further Plaintiffs 8-year-old son has been unlawfully deprived of his lunch by his school, byj.Feinerman by members
of the Executive Committee and by the judges named above;

d) Further, all the judges and the members of the Executive Committee named above retaliated against Plaintiff and his
three minor children by threatening sanctions for filing a complaint with USDOJ as described in Exhibit-2;
e)

Further, all the judges and the members of the Executive Committee named above retaliated against the Plaintiff and
his three minor children by threatening sanctions, contempt of court, and a fine of $1000.00 for filing a complaint
with Chief Judge of 7th Circuit Diane Sykes against the several judges of this court, members of the Executive
Committee and forced the Plaintiff to withdraw his complaint as described in Exhibit-2;

f)

Finally, all the judges and the members of the Executive Committee named above, retaliated against the Plaintiff and
his three minor children by having Plaintiffs home raidg^jyp 6j30 AM by Naperville Police and several Federal Ag ents

1

Case: 21-1591

Document: 15

Filed: 09/13/2021

Pages: 324

and the Plaintiff was threatened by the Federal Agents for filing complaints against the judges and the members of
the Executive Committee named above;
g)

Further Plaintiff was threatened by Federal Agents upon orders of the judges and the members of the Executive
Committee named above, to watch out what he files against the judges named above;

h) Further Federal Agents threatened Plaintiff during the raid to not make them come again to his home and do this in
front of his children;
i)

Further judges and the members of the Executive Committee named above, used Plaintiffs three minor children as
“human shields” to protect themselves from Plaintiffs complaints against them when the judges caused the Federal
Agents to threaten the Plaintiff “to not make them come back again to do this in front of his children”.

j)

Further, the judges and the members of the Executive Committee named above caused the raid of Federal Agents
and Naperville Police upon Plaintiffs home to threaten the Plaintiff with false arrest and false imprisonment if the
Plaintiff files any complaint against the judges and the members of the Executive Committee named above;

2.

There is active investigation pending with United States Department of Justice (USDOJ) against the members of the
Executive Committee, J Jorge Alonso, J. Gary Feinerman, Chief Judge Rebecca Pallmeyer, J. Ronald Guzman, J.Robert
Gettleman, J. John Blakey, J.Iain Johnston, Thomas Bruton, J.Frank Easterbrook, J.Michael Kanne, J.Diane Wood,
J.Michael Brennan, JAmy St.Eve, J. liana Rover, J.Michael Scudder, J..David Hamilton, and Chief Judge Diane Sykes

3.

Further, the judges and the members of the Executive Committee named above after committing actions as described
above, represent that they are impartial when they heard matters related to the Plaintiff and his three minor children
which is nothing but preposterous;

4.

Further, the judges and the members of the Executive Committee named above entered orders against Plaintiff with
prejudice towards his race, color, religion, national origin, ancestry, ethnicity, disabilities, etc.

5.

Further, the judges and the members of the Executive Committee named above entered orders against Plaintiff in
retaliation for Plaintiffs protected activity including but not limited to complaints against the judges and the members
of the Executive Committee named above.

6.

The adverse rulings against the Plaintiff by judges and the members of the Executive Committee named above are
“derived from an extrajudicial source” or “reveal such a high degree of favoritism or antagonism as to make fair
judgment impossible.”Uteky, 510 U.S. at 555.

7.

“Findings by a trial judge unsupported by the record are evidence that the judge has relied on extrajudicial sources in
making such determinations indicating personal bias and prejudice.” Peacock Records, Inc. v. Checker Records, Inc., 430
F.2d 85, 89 (7* Circuit. 1970).

8. All the rulings against the Plaintiff by judges and the members of the Executive Committee named above are treason,
violation of oath of office, judicial trespass, and fraud upon the court.
9.

Further, when Plaintiff appealed the Executive Committee’s Orders, the 7th Circuit in concert with the judges and
members of the Executive Committee named above unlawfully affirmed the Executive Committee’s Orders without
answering the questions asked by Plaintiff in his Appellant’s Brief.

App 6

2

Case: 21-1591

Document: 15

Filed: 09/13/2021

Pages: 324

10. Further, Plain tiff was not provided Notice and Opportunity to be heard, Adequate Record of Review and Substantive
Findings of Frivolousness and Harassment pursuant to Ringgold-l^ockbart v. County of J.jos-Angeles, No. 11 -57231 (9th Cir.
2014), before the Executive Committee entered orders against the Plaintiff.
11. Further, the,7th Circuit remained silent on Kinggold-Lackhart v. County ofLas Angeles, No. 11-57231 (9lh Cir. 2014) when
it affirmed the Executive Committees Orders against the Plaintiff.
12. Further, most of the cases filed by Plaintiff in the United States District Court for the Northern District of Illinois
(hereinafter District Court) cannot be taken into account when entering restricting orders against Plaintiff pursuant
to Goolsby v Gon%ale%_, Case # 11 -cv-00494-LJO-GSA-PC, (E.D.Cal).
13. Further many of the cases filed in the District Court in which the Plaintiff is involved were removed by the Defendants
to the District Court from State courts and such cases can also be not taken into account when entering restricting
orders against the Plaintiff pursuant to Goolsby v Gon^cile^ Case # ll-cv-00494-LJO-GSA-PC, (E.D.Cal).
14. Further, when Plaintiff appealed the dismissal of Case # 18-cv-8393, the 7th Circuit in concert with the judges and
members of the Executive Committee named above unlawfully affirmed J.Feinerman’s judgment which dismissed the
case as a sanction without answering Plaintiffs questions.
15. Further, Case # 20-cv-50133 was dismissed under Rule 8 without allowing the Plaintiff to amend his complaint after
the court invoked Rule 8 violation in violation of various decisions of the 7th Circuit court and other Circuits, by
J Johnston in concert with the judges and the members of the Executive Committee named above in retaliation for
his lawsuit against J.Johnston and several other judges of this court and the 7th Circuit.
16. Further, when Plaintiff unknowingly appealed an order from NLRB, the 7th Circuit entered sanctions against Plaintiff
in concert with the judges and members of the Executive Committee named above despite Plaintiffs representation
to the 7th Circuit that he did not know that NLRB’s Order cannot be appealed.
17. Litigiousness alone is not enough, either: ‘“The plaintiffs claims must not only be numerous but also be patently
without merit.”’ Molskl, 500 F.3d at 1059 (quoting Moy, 906 F.2d at 470).
18. Already a judge (J.Tharpe) of the District Court has refused to follow Executive Committee’s illegal orders against

the Plaintiff.
19. Judge Tharpe has not sent Mohammed v TMobile USA Inc, Case # 21-cv-2706 to the Executive Committee for review
as he does not feel that cases removed by the Defendants from the State Courts to District Court can be reviewed by
the Executive Committee.
20. Plaintiff has informed Judge Tharpe about the existence of the Executive Committee Orders against him, and Judge
Tharpe has acknowledged that he is aware of the Executive Committee Orders against Plaintiff.
21. Further denial of this Motion will also be considered another count of retaliation against Plaintiff by the judges and
the members of the Executive Committee named in the pending complaint with USDOJ and will be reported to
USDOJ.
22. Further denial of this Motion will be considered another violation of 18 U.S.C. Sections 1512 and 1513.

App 7

3

Case: 21-1591

Document: 15

Filed: 09/13/2021

Pages: 324

23. The actions of the judges and the members of the Executive Committee named above were intentionally committed
to cause a physical and mental injury to Plaintiff and his three minor children and such actions have caused extreme
physical and mental injury to Plaintiff and his three minor children.
24. Plaintiffs mjnor children live in constant fear of early morning raids by Federal Agents and the Naperville Police.
25. Based on the arguments made above all the judges of the 7dl Circuit are disqualified to hear any matter involving the
Plaintiff or his three minor children.
26. Christianson v. Colt Industries Operating Corp., 486 U.S. 800, 819 (1988), the court explained that “if a transferee court can
find the transfer decision ‘plausible,’ it should accept jurisdiction.”
27. Pursuant to Christianson v. Colt Industries Operating Corp., 486 U.S. 800, 819 (1988) this case can be transferred to another
circuit.
Wherefore, for the foregoing reasons, Plaintiff prays to this court.
a)

Enter an order transferring this case to another circuit that shares a border with the 7th circuit;

b) Enter an order staying the payment of the docketing fees until this case is transferred to another circuit or
until April 18, 2022, whichever date comes later;
c)

Enter an Order for any such other relief as the court may deem just and proper.

Dated-: 09/13/2021

Respectfully Submitted,

/s/Abdul Mohammed,
Pro Se Plaintiff,
258 East Bailey Rd, Apt C,
Naperville, IL 60565

App 8

4

Case: 20-2419
Document: 79
Filed: 09/17/2021
Pages: 1
IN THE UNITED STATES DISTRICT COURT FOR NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
ABDUL MOHAMMED,
PLAINTIFF-APPELLANT
CASE # 20-2419

vs.
PRAIRIE STATE LEGAL SERVICES INC ETAL
DEFEND ANTS-APPELLEES,

MOTION FOR EXPLANATION
NOW COMES, the Plaintiff-Appellant Abdul Mohammed, appearing for himself as Pro Se, with his Motion for
Explanation and states as follows-:
1.

On September 17, 2021, Plaintiff-Appellant’s Amended Motion for Transfer was denied without any explanation
from the court.

2.

Plaintiff-Appellant is requesting this court to explain why his Amended Motion for Transfer was denied because the
Plaintiff-Appellant needs that information to file his Petition for Writ of Mandamus in the Supreme Court of the
United States.

Dated-: 09/17/2021

Respectfully Submitted,

/s/Abdul Mohammed,
Pro Se Plaintiff,
258 East Bailey Rd, Apt C,
Naperville, IL 60565

App 9

Case: 21-1591
Document: 17
Filed: 09/17/2021
Pages: 1
IN THE UNITED STATES DISTRICT COURT FOR NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
ABDUL MOHAMMED,
PLAINTIFF-APPELLANT
CASE #21-1591

vs.

DAN BRIDGES ET.AL
DEFENDANTS-APPELLEES,

MOTION FOR EXPLANATION
NOW COMES, the Plaintiff-Appellant Abdul Mohammed, appearing for himself as Pro Se, with his Motion for
Explanation and states as follows-:
1.

On September 17, 2021, Plaintiff-Appellant’s Amended Motion for Transfer was denied without any explanation
from the court.

2.

Plaintiff-Appellant is requesting this court to explain why his Amended Motion for Transfer was denied because the
Plaintiff-Appellant needs that information to file his Petition for Writ of Mandamus in the Supreme Court of the
United States.

Dated-: 09/17/2021

Respectfully Submitted,

/s/Abdul Mohammed,
Pro Se Plaintiff,
258 East Bailey Rd, Apt C,
Naperville, IL 60565

App 10

Case: 21-1591
Document: 18
Filed: 09/20/2021
Pages: 3
IN THE UNITED STATES DISTRICT COURT FOR NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
ABDUL MOHAMMED,
PLAINTIFF-APPELLANT
CASE #21-1591

vs.
DAN BRIDGES ET.AL
DEFEND ANTS-APPELLEES,

MOTION FOR MISCELLANEOUS RELIEF
NOW COMES, the Plaintiff-Appellant Abdul Mohammed, appearing for himself as Pro Se, with his Motion for
Miscellaneous Relief and states as follows-:
1.

The clerk of this court is refusing to file the Motion as shown in Exhibit-A for no reason whatsoever.

2.

Please direct the clerk of the court to file the Motion as shown in Exhibit-A in this case or in Case # 20-3178.

3.

Plaintiff-Appellant needs relief as requested in the Motion as shown in Exhibit-A to file his Application for In Forma
Pauperis in the instant case.

Dated-: 09/20/2021

Respectfully Submitted,

/s/Abdul Mohammed,
Pro Se Plaintiff,
258 East Bailey Rd, Apt C,
Naperville, IL 60565

App 11

Case: 21-1591

Document: 18

Filed: 09/20/2021

Pages: 3

L

EXHIBIT-A

App 12

Case: 21-1591

Document: 18

Filed: 09/20/2021

Pages: 3

Case #20-3178
Abdul Mohammed <aamohammed@hotmail.com>
Sun 9/19/2021 3:13 PM
To: CA07^.pro_se_filings <CA07_pro_seJilings@ca7.uscourts.gov>
i 1 attachments (15 MB)
Motion to Vacate.pdf;

Dear Clerk,
Please find attached the Motion that needs to be filed in the above-captioned case.
Sincerely,
Abdul Mohammed

A

g

Virus-free, www.avq.com

App 13

Case: 20-2419

Document: 78

Filed: 09/17/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen
United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
September 17, 2021
By the Court:
ABDUL AZEEM MOHAMMED,
Plaintiff - Appellant
No. 20-2419

v.

PRAIRIE STATE LEGAL SERVICES, INC., et al.,
Defendants - Appellees
Originating Case Information:
District Court No: 3:20-cv-50133
Northern District of Illinois, Western Division
District Judge John Robert Blakey
The following are before the court:
1. MOTION FOR TRANSFER, filed on September 13, 2021, by the pro se appellant.
2. AMENDED MOTION FOR TRANSFER, filed on September 13, 2021, by the
pro se appellant.
IT IS ORDERED that the motions are DENIED.

form name: c7_Order_BTC

(form ID: 178)

App 14

Case: 21-1591

Document: 16

Filed: 09/17/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
-V

Everett McKinley Dirksen
United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
September 17, 2021
By the Court:
ABDUL AZEEM MOHAMMED,
Plaintiff - Appellant
No. 21-1591

v.
NAPERVILLE COMMUNITY UNIT SCHOOL DISTRICT 203 and
RACHEL WEISS,
Defendants - Appellees

Ori^injlinK Cast* Infornidtiiin:
District Court No: l:19-cv-06525
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman
The following are before the court:
1. MOTION FOR TRANSFER, filed on September 13, 2021, by pro se appellant.
2. AMENDED MOTION FOR TRANSFER, filed on September 13, 2021, by pro se appellant.
IT IS ORDERED that the motions are DENIED.

form name: c7_Order_BTC

(form ID: 178)

App 1 5

Case: 20-2419

Document: 80

Filed: 09/24/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen
United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
September 24, 2021
By the Court:
ABDUL AZEEM MOHAMMED,
Plaintiff - Appellant
No. 20-2419

v.
PRAIRIE STATE LEGAL SERVICES, INC., et al.,
Defendants - Appellees

OBfesaigigiiBiisafe
District Court No: 3:20-cv-50133
Northern District of Illinois, Western Division
District Judge John Robert Blakey
Upon consideration of the MOTION FOR EXPLANATION, filed on
September 17, 2021, by the pro se appellant,
IT IS ORDERED that the appellant's motion for explanation is DENIED.

form name: c7_Ordei_BTC

(form ID: 178)

App 16

Case: 21-1591

Document: 19

Filed: 09/24/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen
United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
September 24, 2021
By the Court:
ABDUL AZEEM MOHAMMED,
Plaintiff - Appellant
No. 21-1591

v.

NAPERVILLE COMMUNITY UNIT SCHOOL DISTRICT 203 and
RACHEL WEISS,
Defendants - Appellees
Originating Case Information:
District Court No: l:19-cv-06525
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman
Upon consideration of the MOTION FOR EXPLANATION, filed on September 20, 2021, by
Pro Se Appellant Abdul Mohammed,
IT IS ORDERED that appellant's motion for explanation is DENIED.

form name: c7_Order_BTC

(form ID: 178)

App 17

Case: 21-1591

Document: 20

Filed: 09/24/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen
United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
September 24, 2021
By the Court:
ABDUL AZEEM MOHAMMED,
Plaintiff - Appellant
No. 21-1591

v.
NAPERVILLE COMMUNITY UNIT SCHOOL DISTRICT 203 and
RACHEL WEISS,
Defendants - Appellees

Ongmatmg Case Informatio n
District Court No: l:19-cv-06525
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman

Upon consideration of the MOTION FOR MISCELLANEOUS RELIEF, filed on
September 20, 2021, by the pro se appellant,
IT IS ORDERED that the appellant Abdul Mohammed's motion for
miscellaneous relief is DENIED.

App 18

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
In the Matter of

)

)
Abdul Mohammed

Civil Action No. 20 C 3479

)

EXECUTIVE COMMITTEE ORDER
Since February 22, 2016, pro se litigant Abdul Mohammed has filed at least 14 cases in
the Northern District of Illinois. The cases have been terminated for reasons such as defendants’
motion for summary judgment, case stayed pending arbitration, plaintiff’s motion to voluntarily
dismiss, failure to state a claim, lack of subject matter jurisdiction, and frivolous complaint,
It is the judgment of the Executive Committee* that reasonable and necessary restraints
must be imposed upon Mr. Mohammed’s ability to file new civil cases in this District pro se.
Cases in existence prior to the entry of this order are not affected by this order and shall proceed
as usual.
IT IS HEREBY ORDERED BY THE EXECUTIVE COMMITTEE in its capacity as the
supervisor of the assignment of cases, that-----

D

Mr. Abdul Mohammed, or anyone, other than an attorney acting on his behalf, is
enjoined from filing any new civil action or proceeding in the United States District
Court for the Northern District of Illinois without first obtaining leave by way of the
following procedures:
a)

Any materials Mr. Mohammed, or anyone, other than an attorney acting on
his behalf, wishes to submit for filing shall be delivered to Room 2050,
Office of the Clerk at the Courthouse in Chicago. Only the Clerk or
deputies specifically designated by the Clerk may accept such documents.

b)

Where the document submitted is a complaint, it shall be accompanied by
a motion captioned “Motion Seeking Leave to File Pursuant to Order of
Executive Committee.” That motion shall, in addition to requesting leave
to file the complaint, include a sworn statement certifying that the claims
raised by or on behalf of Mr. Mohammed in the complaint are new claims
never before raised in any federal court.

c)

Whenever Mr. Mohammed submits a document for filing, the clerk or
designated deputy shall accept the papers, stamp them received, docket
them on Mr. Mohammed’s Executive Committee case number, and forward
them to the Executive Committee.

2)

The Executive Committee will examine any complaints submitted by or on behalf
of Mr. Mohammed to determine whether they should be filed.

3)

If Mr. Mohammed seeks leave to proceed in forma pauperis, the Committee will
also determine if such leave should be granted. The Committee will deny leave
to file any complaints if they are legally frivolous or are merely duplicative of
matters already litigated. The Committee may deny leave to file any complaints
not filed in conformity with this order.

4)

If the Executive Committee enters an order denying leave to file the materials, the
clerk shall retain the order on a miscellaneous docket with the title “In Re: Abdul

App 19

Mohammed” and cause a copy of the order to be mailed to Mr. Mohammed.
5)

If the Executive Committee enters an order granting leave to file the materials, the
clerk will cause the materials to be stamped filed as of the date received and shall
cause the case to be assigned to a judge in accordance with the rules. The clerk
shall also cause a copy of the order to be mailed to Mr. Mohammed.

6)

Mr. Mohammed’s failure to comply with this order may, within the discretion of the
Executive Committee, result in his being held in contempt of court and punished
accordingly.

7)

Nothing in this order shall be construed
a)

to affect Mr. Mohammed’s ability to defend himself in any criminal action

b)

to deny Mr. Mohammed access to the federal courts through the filing of a
petition for a writ of habeas corpus or other extraordinary writ, or

c)

to deny Mr. Mohammed access to the United States Court of Appeals or
the United States Supreme Court.

IT IS FURTHER ORDERED That any password issued to Abdul Mohammed for access
to the electronic filing system shall be disabled.
IT IS FURTHER ORDERED That any new complaints filed by Mr. Mohammed and
transferred to this Court from another jurisdiction shall be reviewed by the Executive Committee
to determine whether they should be filed.
IT IS FURTHER ORDERED That the Clerk shall cause to be created and maintained a
miscellaneous docket with the title "In Re: Abdul Mohammed" and case number 20 CV 3479.
The miscellaneous docket shall serve as the repository of this order and any order or minute order
entered pursuant to this order. All orders will be entered on the docket following standard
docketing procedures. A brief entry will be made on the docket indicating the receipt of any
materials from Mr. Mohammed.
IT IS FURTHER ORDERED That the Clerk shall cause a copy of this order to be mailed
to Mr. Mohammed at 258 East Bailey Rd., Apt. C, Naperville, Illinois 60565, the address given by
Mr. Mohammed in documents filed on May 29, 2020. Such mailing shall be by certified or
registered mail, return receipt requested.
ENTER:
FOR THE EXECUTIVE COMMITTEE

Dated at Chicago, Illinois this 17th day of June, 2020

’Judges before whom Mr. Mohammed has active cases have recused themselves in this matter.

2

App 20

Case: 20-2090

Document: 8
Filed: 08/13/2020
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

In the Matter of

)
)

Abdul Mohammed

Pages: 2

)
)

Civil Action No.
20 C 3479

EXECUTIVE COMMITTEE ORDER

On June 3, 2020, the Law Firm of Robbins Schwartz submitted its Notice to the Executive
Committee on behalf of Defendants in case number 20 C 50133, Abdul Mohammed v. The State
of Illinois, et al, before the Honorable John Robert Blakey. Enclosed was Defendants’ motion to
have pro se plaintiff Abdul Mohammed declared a vexatious litigant.
On June 4, 2020, Mr. Mohammed submitted his Response to the motion of June 3, 2020.
On June 17, 2020, after consideration of the above-described documents in addition to
Mr. Mohammed’s many filings in this District, an Executive Committee order was entered,
restricting the filings of pro se plaintiff Abdul Mohammed and directing that any documents he
submits shall be reviewed by the Executive Committee to determine whether they should be filed.
The June 17, 2020 order noted that since February 22, 2016, pro se litigant Abdul
Mohammed had filed at least 14 cases in the Northern District of Illinois. The cases were
terminated for reasons such as defendants’ motion for summary judgment, case stayed pending
arbitration, plaintiff’s motion to voluntarily dismiss, failure to state a claim, lack of subject matter
jurisdiction, and frivolous complaint.
On June 18, 2020, Mr. Mohammed submitted his Response to the Executive Committee’s
Order of June 17, 2020. Also on June 18, 2020, Mr. Mohammed submitted his Notice of Appeal
regarding the same Order.
On June 19, 2020, Prairie State Legal Services, Inc., on behalf of its Defendant client,
submitted its Defendants’ Memorandum in Support of Motion to Declare Abdul Mohammed as a
Vexatious Litigant.
On June 26, 2020, Mr. Mohammed submitted his Affidavit and in forma pauperis
application in Executive Committee case number 20 C 3479.
On June 29, 2020, the Honorable Manish S. Shah entered an order terminating case
number 20 C 3481, Abdul Mohammed v. Judge Jorge Alonso, et al, which was filed in the Central
District of Illinois and transferred to this District. The complaint accused Northern District of
Illinois judges of improper rulings and bias in Mr. Mohammed’s cases and requested
disqualification and vacatur of the judgments in his dismissed lawsuits.
At its meeting on July 6, 2020, the Executive Committee considered the above-listed
submissions and facts, and determined that Abdul Mohammed’s efforts in this District have
become burdensome to the Committee, straining the resources of the Court and the Clerk’s
Office, therefore
IT IS HEREBY ORDERED that Mr. Mohammed is granted leave to file his June 26, 2020
Affidavit and in forma pauperis application in case number 20 C 3479.

App 21

Case: 20-2090
Document: 8
Filed: 08/13/2020
Pages: 2
IT IS FURTHER ORDERED that for a period of 12 months from the date of this order, any
complaints, motions, or presentments received from Abdul Mohammed shall be discarded unfiled,
and
IT IS FURTHER ORDERED that no sooner than 12 months from the date of this order,
Mr. Mohammed may submit to the Executive Committee a motion to modify or rescind the
restrictions against him, and
IT IS FURTHER ORDERED that nothing in this order shall be construed
a)

to affect Mr. Mohammed’s ability to defend himself in any criminal action

b)

to deny Mr. Mohammed access to the federal courts through the filing of a
petition for a writ of habeas corpus or other extraordinary writ, or

c)

to deny Mr. Mohammed access to the United States Court of Appeals or
the United States Supreme Court.

IT IS FURTHER ORDERED That any new complaints filed by Mr. Mohammed and
transferred to this Court from another jurisdiction shall be reviewed by the Executive Committee
to determine whether they should be filed, and
IT IS FURTHER ORDERED That the Clerk shall cause a copy of this order to be mailed
to Mr. Mohammed at 258 East Bailey Rd., Apt. C, Naperville, Illinois 60565, the address given by
Mr. Mohammed in documents filed on June 30, 2020. Such mailing shall be by certified or
registered mail, return receipt requested.
ENTER:
FOR THE EXECUTIVE COMMITTEE

Chief Judge

Dated at Chicago, Illinois this 13th day of August, 2020

App 22

Case: l:20-cv-03479 Document #: 46 Filed: 09/16/21 Page 1 of 2 PagelD #:1410

UNITED STATES DISTRICT
COURT NORTHERN DISTRICT
OF ILLINOIS
In the Matter of

)
)
)

Abdul Mohammed

Civil Action Nos.
20 C 03479 and

21 C 04697

EXECUTIVE COMMITTEE ORDER
On August 13, 2020, an Executive Committee order was entered directing any new complaints
filed by Abdul Mohammed and transferred to this Court from another jurisdiction shall be
reviewed by the Executive Committee to determine whether they should be filed. On January
11,2021, the United States Court of Appeals for the Seventh Circuit sanctioned Mr. Mohammed
(No. 20-3178, Abdul Mohammed v. National Labor Relations Board). The sanction ordered
stated, “Abdul Azeem Mohammed has forfeited the privilege of proceeding in any new or
pending case in the district court or court of appeals, until he has paid, in full, all outstanding
fees and costs for all of his lawsuits.” The sanction order continued, “In any application to
proceed in forma pauperis or motion to lift this restriction, Mohammed must provide (under
oath) a complete list of all of his federal suits and proof that all of his financial obligations with
respect to these suits have been met.”
On August 30, 2021, Mr. Mohammed submitted an action in the Central District of Illinois
(21cv01243 CDIL). On September 2, 2021, the Honorable Michael M. Mihm of the Central
District of Illinois transferred the case to the Northern District of Illinois, where it was assigned
as case number 21 C 04697, Mohammed v. Prairie State Legal Services, Inc et al, before the
Honorable John J. Tharp.
At its meeting on September 9, 2021, the Executive Committee reviewed the submission
from Mr. Mohammed, now therefore
IT IS HEREBY ORDERED That Mr. Mohammed, is denied leave to file case number 21 c
04697, Mohammed v. Prairie State Legal Services, Inc et al.
IT IS FURTHER ORDERED That the order entered on August 13, 2020 remains in force, and
any documents submitted by Mr. Mohammed shall be discarded for a period of 12 months, after
which he may submit a motion to modify or rescind the restrictions against him, unless he
demonstrates to the Executive Committee in writing that he is in imminent danger of great bodily
harm, and any new complaints filed by Mr. Mohammed and transferred to this Court from
another jurisdiction shall be reviewed by the Executive Committee to determine whether they
should be filed, and,
IT IS FURTHER ORDERED THAT any future submission from Mr. Mohammed must be in
accordance with the January 11,2021 sanction order from the Seventh Circuit Court of Appeals
or the Executive Committee will not consider the submission and additional sanctions may be
imposed such as contempt, monetary or further filing restrictions because Mr. Mohammed
failed to follow the directives of the sanction order when he filed these documents, and
IT IS FURTHER ORDERED That the Clerk shall cause a copy of this order to be docketed in
both 20 C 03479 and 21 C 04697, and,

App 23

Case: l:20-cv-03479 Document #: 46 Filed: 09/16/21 Page 2 of 2 PagelD #:1411

IT IS FURTHER OREDERED THAT the Clerk is to close 21 C 04697, Mohammed v. Prairie
State Legal Services, Inc et al, and terminate any pending motion as moot, and
IT IS FURTHER ORDERED THAT the Clerk shall cause a copy of this order to be mailed to
Mr. Mohammed at 258 East Bailey Rd Apt. C, Naperville, IL 60565; the address given by Mr.
Mohammed in documents filed in this matter. Such mailing shall be by certified or registered
mail, return receipt requested.
ENTER:
FOR THE EXECUTIVE COMMITTEE

Hon. Rebecca R. Pallmeyer, Chief Jt£/ge
Dated at Chicago, Illinois this 16th day of September 2021

App 24

IN THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS

FF»
t

r>

ABDUL MOHAMMED,

21 SEP 22 AMS:

PLAINTIFF
vs.

iq

iR!S i
CUA C: > "

THOMAS BRUTON, MEMBERS OF THE EXECUTIVE
COMMITTEE OF THE DISTRICT COURT, J. JORGE

JtP-A *^00,0 0- 00

ALONSO, J. GARY FEINERMAN, CHIEF JUDGE
REBECCA PALLMEYER, J. RONALD GUZMAN, J,
ROBERT GETILEMANJ.JOHN BLAKEY, J. IAIN
JOHNSTON, J. FRANK EASTERBROOK, J. MICHAEL

2*2 i ^■■£3035

KANNEJ. DIANE WOOD, J. MICHAEL BRENNAN,

'r "■1

\r

£

JTV C

[.AMY ST.EVEJ. IIANA ROVER, J. MICHAEL

iOf C

SCUDDER, J. DAVID HAMILTON, AND CHIEF

\0Gii X
■* Hicentionai

JUDGE DIANE SYKES,
DEFENDANTS,

21L 0.063085

VERIFIED COMPLAINT AT LAW
PARTIES, JURISDICTION, AND VENUE
1. Plaintiff brings this Bivens action for numerous violations of his
constitutional rights, commission of crimes and
torts against the Plaintiff, and for various violations of Federal and State Laws and Statutes by the individual
Defendants.
2. Pursuant to 28 U.S. Code § 1442 this case can be filed in this court.
3. The Plaintiff is a protected person within the meaning of the Americans with Disabilities Act, the Rehabilitation Act
of 1973, Section 504, the Illinois Adult Protective Services Act, and the Federal Traumatic Brain
Injury

Reauthorization Act of 2014.

4. Defendants other than Thomas Bruton (hereinafter Bruton) are the judges of the United States District Court for
the Northern District of Illinois (hereinafter District Court) and the 7* Circuit and Defendant Bruton is the Clerk
of the District Court.
S* Memb«s of the Executive Committee of the District C

ourt consist of unknown judges and Bruton.
BIVENS V. SIX UNKNOWN FED. NARCOTICS AGENTS, 403 U.S. 388 (1971)
6. A Plaintiff alleging a constitutional violation by a federal actor has aright of action under Bfiwr, 403 U.S at397
Pursuant to Bnwtr, a Plaintiff may sue a federal officer in his or her individual capacity for damages for eolation of
the plaintiffs constitutional rights.
FACTUAL A#e£6ROUND

7.

Since die entering of die illegal orders by die Executive Committee of the United States District Court for the
Northern District of Illinois (hereinafter Executive Committee), die members of die Executive Committee, J Jorge
Alonso, J. Gary Feinerman, Chief Judge Rebecca Pallmeyer, J.Ronald Guzman, J.Robert Getdeman, J. John Blakey,
J.Iain Johnston, Thomas Bruton, J.Frank Easterbrook, J.Michael Kanne, J .Diane Wood, J .Michael Brennan, J Amy
St .Eve, J. liana Rover, J.Michael Scudder, J. David Hamilton, and Chief Judge Diane Sykes has harassed die Plaintiff
and liis three minor children and retaliated against the Plaintiff and liis three minor children as follows:
1) J.Feinerman ruled in Mohammed v Bridges et.ai, Case # 19-cv-6525 (N.D.I11) that the Plaintiffs 8-year-old son’s
school can deprive Plaintiffs soil of his lunch and die one or more of the

Circuit judges mentioned

above affirmed J.Feinerman’s ruling diat Plaintiffs 8-vear-old son’s school can deprive Plaintiffs son of liis
lunch;
2) FurdierJ.Feinerman dismissed Mohammed v Bridges etals Case # 19-CV-6525 (N.D.I11) when Plaintiff asked a
question as follows:
"Ms. Deanes,
I have die following question forjudge Feinerman:
How come it is OK to only ban me from dropping Lunch for my son whereas odier parents can drop
Lunch for tiieir children? Please answer die above question via email either to me or to my attorney, Marco
Rodriguez. Sincerely, Abdul Mohammed”;
3) Further Plaintiffs 8-year-old son has been unlawfully deprived of his lunch by his school, by J.Feinerman by
members of the Executive Committee and die other judges named above;
4} Further, all die judges named above, and die members of the Executive Committee retaliated against
Plaintiff and his three minor children by threatening sanctions for filing a complaint with USDOJ as
described in Exhibit-! and there is a complaint pending against die above-named judges and members of
the Executive Committee as described in Exhibit-1;
5) Further, all the judges named above and the members of die Executive Committee retaliated against the
Plaintiff and liis three minor children by threatening sanctions, contempt of cotut, jail time, and a fine of
§1000.00 for filing a complaint with Chief Judge of 7^ Circuit Diane Sykes against several judges of the
United States District Coiut for die Nortiiern District of Illinois (hereinafter District Court), die 7* Circuit
and members of die Executive Committee and forced the Plaintiff to withdraw liis complaint as described
in Exhibit-1;
6) Finally, all the judges named above and die members of the Executive Committee, retaliated against the
Plaintiff and his three minor children by having Plaintiffs home raided at 6:30 AM by Naperville Police and
several Federal Agents and the Plaintiff was direatened by the Federal Agents for filing complaints against
the judges named above and die members of die Executive Committee;
7) Furtiier Plaintiff was threatened by Federal Agents upon orders of die judges named above and the
members of the Executive Committee, to watch out what he files against the judges;
8) Furtiier Federal Agents direatened the Plaintiff during die raid to not make diem come back again to his
home and do tiiis in front of his children;

App 26

2

9) Further judges named above and die members of the Executive Committee, used Plaintiffs three minor
children as “human shields” to protect diemselves from Plaintiffs complaints against diem when they
earned the Federal Agents to threaten the Plaintiff “to not make them come back again and to do this in
front of his children”;
10) Further, the judges named above, and die members of the Executive Committee caused the raid of Federal
t

J

t

Agents and Naperville Police upon Plaintiffs home to tiireaten the Plaintiff witii false arrest and false
imprisonment if the Plaintiff files any complaint against the judges named above and the members of the
Executive Committee named above;
11) Further, die judges named above and die members of die Executive Committee after committing actions as
described above, represent that they are impartial when they heard matters related to die Plaintiff and his
three minor children which is nodiing but preposterous;
12) Further, the judges named above, and the members of the Executive Committee entered orders against the
Plaintiff with prejudice towards his race, color, religion, national origin, ancestry, ethnicity, disabilities, etc.
and committed actions in retaliation to die Plaintiffs Federal Complaints against the judges named above
including but not limited to Federal Lawsuits and complaint with USDOJ;
13) Further, the members of die Executive Committee enforced a non-existing order of the 7th Circuit, against
(

Plaintiff on September 16, 2021 (Exliibit-2).

14) Further, when Plaintiff filed Motion to Vacate die illegal orders of the Executive Committee (Exhibit-3),
members of die Executive Committee has refused to rule on the Motion to Vacate die illegal orders of the
Executive Committee.
15) The adverse rulings against the Plaintiff by judges named above and the members of the Executive
Committee are “'derived from an extrajudicial source” or “reveal such a high degree of favoritism or
antagonism as to make fair judgment impossible

510 U.S. at 555.

16) “Findings by a trial judge unsupported by the record are evidence that die judge has relied on extrajudicial
sources in making such determinations indicating personal bias and prejudice.” Peacock Records. Inc. v. Checker
Records, Inc., 430 F.2d 85, 89 (7* Circuit. 1970).
17) All the rulings against the Plaintiff by judges named above and the members of the Executive Committee
are treason, violation of oath of office, judicial trespass, and fraud upon the court because the judges named
above were disqualified from hearing any matter involving die Plaintiff due to their hatred and prejudice
against the Plaintiff as described in Exhibit-4.
18) Further, when Plaintiff appealed die Executive Committee’s Orders, die 7* Circuit in concert with die
judges named above and members of the Executive Committee unlawfully affirmed the Executive
Committee’s Orders without answering the questions asked by Plaintiff in his Appellant’s Brief.
19) Further, Plaintiff was not provided Notice and Opportunity to be heard, Adequate Record of Review and
Substantive Findings of Frivolousness and Harassment pursuant to Ringgold-Lockhmi i\ County of Los A ngeles.
No. 11-57231 (9th- Cir. 2014), before the Executive Committee entered orders against the Plaintiff.
20) Further, the 7* Circuit remained silent on RJnggold-Lockhart v. County of Los Angeles, No. 11-37231 (9th Cir.
2014) when it affirmed the Executive Conmut^&fOi^ers against the Plaintiff.

21) Further, most of the cases filed by Plaintiff in the District Court cannot be taken into account when entering
restricting orders against Plaintiff pursuant to Goolsby v Gonyalec^ Case # 1 l-cv-00494-LJO-GSA-PC,

(E.D.Cal).
22) Further many of the cases filed in the District Court in which the Plaintiff is involved were removed by the
Defendants to the District Court from State courts and such cases can also be not taken into account when
<

'

'

y

entering restricting orders against the Plaintiff pursuant to Goolsby v Gon-^ale%, Case # ll-cv-00494-LJOGSA-PC, (E.D.Cal).
23) Further, when Plaintiff appealed the dismissal of Case # 18-cv-8393, the 7th Circuit in concert with the
judges named above and members of tire Executive Committee unlawfully affirmed J.Feinerman’s judgment
which dismissed the case as a sanction without answering Plaintiffs questions.
24) Further, Case # 20-cv-50133 was dismissed under Rule 8 without allowing tire Plaintiff to amend his
complaint even once after tire court invoked Rule 8 violation in violation of various decisions of the 7*
Crrcuit court and other Circuits, by J Johnston in conceit with the judges named above and tire members of
the Executive Committee in retaliation for Iris lawsuit against JJohnston and several other judges of this
court and the 7th Circuit.
25) Further, when Plaintiff unknowingly appealed an order from NLRB in the instant case, tire 7* Circuit
entered sanctions against tire Plaintiff in concert with the judges named above and members of the
Executive Committee despite Plaintiffs representation to the

Circuit that he did not know that NLRB’s

Order cannot be appealed.
26) Litigiousness alone is not enough, either: ‘“Tire plaintiffs claims must not only be numerous but also be
patently without merit.”’ Molski, 500 F.3d at 1059 (quoting Moj, 906 F.2d at 470).
27) Already a judge (J.Tharpe) of the District Court has refused to follow Executive Committee’s illegal orders
against the Plaintiff. Judge Tharpe has not sent Mohammed v T-Mobik USA Inc, Case # 21-cv-2706 (N.D.Ilf)
to die Executive Committee for review as he does not feel that cases were removed by the Defendants from
die State Courts to the District Court, can be reviewed by the Executive Committee. Plaintiff has informed
Judge Tharpe about the existence of die Executive Committee Orders against him, and Judge Tharpe has
acknowledged diat he is aware of the Executive Committee Orders against Plaintiff.
28) Further, when J.Tharpe refused to forward Mohammed i> T-Mohile USA Inc, Case # 21-CV-2706 (N.D.I11) and
Mohammed v Prairie State Legal Services Inc et.al' Case # 21-cv-4697 (N.D.I1T) to die Executive Committee,
members of the Executive Committee usurped those matters from J.Tharpe.
8.

Defendants were disqualified from hearing matters involving the Plaintiff due to their hatred and prejudice against
die Plaintiff based on his race, color, religion, national origin, ancestry, etiinicity, disabilities, etc, hence the
Defendants does not liave either judicial or qualified immunity as further described in a similar case where die
Plaintiff is a party (See paragraphs 36-43 of Exhibits-5).
COUNT-1
VIOLATION OF REHABILITATION ACT OF 1973, SECTION 504
(ALL DEFENDANTS)

Ap p 28

4

9.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if hilly set forth herein.

10. Defendants violated section 504 of the Rehabilitation Act of 1973 by retaliating against the Plaintiff for his
protected activity including but not limited to claims arising from his disabilities and claims arising under 504 of the
Rehabilitation Act of 1973 when they committed actions as described from paragraphs 1-8.
11. Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants’ actions as described above will proximately cause immediate and further irreparable harm to Plaintiff.
COUNT-2
VIOLATION OF FIRST AMENDMENT RIGHT TO PETITION THE GOVERNMENT PURSUANT
PURSUANT TO BIVENS, 403 U.S. AT 397
(ALL DEFENDANTS)
. 2.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if hilly set forth herein.

.3.

Defendants’ illegal actions as described above in paragraphs 1-8 deprived the Plaintiff of his constitutional right to
petition the government pursuant to die 1st Amendment of the Constitution of the United States.

.4.

Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants’ actions as described above will proximately cause immediate and further irreparable harm to Plaintiff.
COUNT-3
VIOLATION OF FOURTEENTH AMENDMENT RIGHT TO AN IMPARTIAL JUDGE
PURSUANT TO BIVENS, 403 U.S. AT 397
(ALL DEFENDANTS)

. 5.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if fully set forth herein.

.6.

Defendants’ illegal actions as described above in paragraphs 1-8 make it crystal clear that they were not impartial
judges and by not being impartial judges the Defendants deprived die Plaintiff of Iris constitutional right to an
impartial judge pursuant to the 14* Amendment of die Constitution of die United States.
Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants’ actions as described above will proximately cause immediate and further irreparable harm to Plaintiff.
COUNT-4
VIOLATION OF FOURTEENTH AMENDMENT RIGHT TO A FAIR TRIAL
PURSUANT TO BIVENS, 403 U.S. AT 397
(ALL DEFENDANTS)

. 8.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if fully set forth herein.

.9.

Defendants’ illegal actions as described above in paragraphs i-S makes it crystal clear tiiat die judges who are
Defendants in this case and by not being impartial judges the Defendants deprived the Plaintiff of his constitutional
right to an impartial judge pursuant to die 14* Amendment of the Constitution of the United States.

10.

Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants’ actions as described above will proximately cause immediate and further irreparable harm to Plaintiff.
COUNT-5
VIOLATION OF FOURTEENTH AMENDMENT RIGHT FOR MALICIOUS PROSECUTION
PURSUANT TO

403 U.S. AT 397

5

(ALL DEFENDANTS)

n.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if fully set forth herein.

.2.

Defendants’ illegal actions as described above in paragraphs 1-8 was malicious prosecution pursuant to the 14*
Amendment of the Constitution of die United States.

15.

Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
'

1

i

Defendants’ actions as described above vail proximateiy cause immediate and further irreparable harm to Plaintiff.
COUNT-6
VIOLATION OF FOURTEENTH AMENDMENT RIGHT FOR DEPRIVATION OF ACCESS OF
COURTS PURSUANT TO BIVENS, 403 U.S. AT 397
(ALL DEFENDANTS)
’4.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if hilly set forth herein.

.5.

Defendants’ illegal actions as described above in paragraphs 1-8 deprived the Plaintiff of his constitutional right of
access to die courts pursuant to the 14* Amendment of the Constitution of the United States.

.6.

Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants’ actions as described above will proximateiy cause immediate and further irreparable harm to Plaintiff.
COUNT-7
VIOLATION OF FOURTEENTH AMENDMENT RIGHT FOR SUBSTANTIVE DUE PROCESS
(SHOCK THE CONSCIENCE)
PURSUANT TO BIVENS, 403 U.S. AT 397
(ALL DEFENDANTS)

>7
:;.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if fully set forth herein.

.8.

Defendants’ illegal actions as described above in paragraphs 1-8 were committed to cause harm to Plaintiff in a
manner shocking to die conscience.

19.

Substantive Due Process Violation claim under Fourteenth Amendment pursuant to Bivens, 403 U.S. at 397 is
recognized when any person acting under color of any statute, ordinance or regulation, deprives any citizen of the
United States of any rights, privileges, or immunities seemed by the constitution and laws.

10.

Defendants’ illegal actions as described above in paragraphs 1-8 are violations of the rights, privileges, and
immunities of die Plaintiff, secured by die constitution and laws as described in this complaint and as described
under diis count. Defendants deprived the Plaintiff of his rights, privileges, and immunities seemed by the
constitution and laws under the color of various laws and statutes.

U.

Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants’ actions as described above will proximateiy cause immediate and further irreparable harm to Plaintiff.
COUNT-8
VIOLATION OF FOURTEENTH AMENDMENT RIGHT FOR SUBSTANTIVE DUE PROCESS
PURSUANT TO BIVENS, 403 U.S. AT 397
(ALL DEFENDANTS)

>2.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if fully set forth herein.

D.

Defendants’ illegal actions as described above in paxag^pBs3lQ8 are Substantive Due Process violations.

6

H.

Substantive Due Process Violation claim under Fourteenth Amendment pursuant to Bivens, 403 U,S. at 397 is
recognized when any person acting under color of any statute, ordinance or regulation, deprives any citizen of die
United States of any rights, privileges, or immunities secured by the constitution and laws.

>5.

Defendants3 illegal actions as described above in paragraphs 1-8 are violations of die rights, privileges, and
immunities of the Plaintiff, secured by the constitution and laws as described in tills complaint and as described
« ' .» ,
under this count. Defendants deprived the Plaintiff of his rights, privileges, and immunities secured by the
constitution and laws under the color of various laws and statutes.

16.

Defendants3 actions as described under diis count have caused irreparable physical and mental injuries to Plaintiff,
Defendants3 actions as described above will proximately cause immediate and further irreparable harm to Plaintiff.
COUNT-9
CLASS-OF-ONE CLAIM EQUAL PROTECTION VIOLATION PURSUANT TO BIVENS, 403 U.S.
AT 397
(ALL DEFENDANTS)

>7.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if hilly set forth herein.

>8.

Defendants’ actions as described above and specifically described in paragraphs 1-8 also constitute a class-of-oneaction asserted under the Equal Protection Clause of the Fourteenth Amendment of the United States Constitution.

19.

A class-of-one action asserted under the Equal Protection Clause of die Fourteenth Amendment of the United
States Constitution and 42 U.S.C. § 1983 is recognized where a plaintiff alleges riiat (s)he has been intentionally
treated differently from others similarly situated and that there is no rational basis for the difference in treatment.
Village ofWtilowbrook t>. Olech, 528 U.S. 562, 564 (2000).

10.

Defendants3 actions as described under diis count have caused irreparable physical and mental injuries to Plaintiff,
Defendants’ actions as described above will proximately cause immediate and further irreparable harm to Plaintiff.
COUNT-10
(CONSPIRACY PURSUANT TO BIVENS, 403 U.S. AT 397)
(ALL DEFENDANTS)

11.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if hilly set forth herein.

12.

In a manner more fully set forth above, Defendants together reached an understanding, engaged in a course of
conduct, and otherwise jointly acted and/or conspired among and between themselves for the purpose of depriving
Plaintiff of Iris constitutional rights and to accomplish an unlawful purpose by unlawful means as described in this
complaint and as described in every individual count.

13.

In furtherance of this conspiracy or conspiracies, Defendants, acting in conceit with each other, committed tire
overt acts as described in this complaint.

14.

Said conspiracy or conspiracies and overt acts continue to the present date.

15.

The misconduct described in tliis count was undertaken with malice, willfulness, and reckless indifference to the
rights of Plaintiff.

16.

Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants3 actions as described above will proximately cause immediate and further irreparable harm to Plaintiff.

c6wdrl.il

7

CONSPIRACY (ILLINOIS STATE LAW)
(ALL DEFENDANTS)
17.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if hilly set forth herein.

18.

In a manner more hilly set forth above, Defendants together reached an understanding, engaged in a course of
conduct, and otherwise jointly acted and/or conspired among and between themselves for the purpose of depriving
-

}

i

Plaintiff of his Constitutional rights, to commit other violations as described in this complaint and to accomplish an
unlawful purpose by unlawful means as described in tliis complaint and as described in every individual count.
19.

In furtherance of this conspiracy or conspiracies, Defendants, acting in conceit with each other, committed the
overt acts as described in tliis complaint.

>0.

Said conspiracy or conspiracies and overt acts were continues from on or about November of 2018, through to the
present date.

>1.

The misconduct, described in this Count was undertaken with malice, willfulness, and reckless indifference to the
rights of Plaintiff.

52.

Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants’ actions as described above will proximately cause immediate and further irreparable harm to Plaintiff,
COUNT-12
INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS (ILLINOIS STATE LAW)
(ALL DEFENDANTS)

>3.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if fully set forth herein.

54.

In a manlier more fully set forth above, the acts and conduct of Defendants were extreme and outrageous.
Defendants intended to cause extreme intentional emotional distress to Plaintiff or were in reckless disregard of the
probability that their conduct would cause severe emotional distress to Plaintiff.

55.

Said actions were undertaken with malice, willfulness, and with reckless indifference to the rights of Plaintiff.

56.

As a direct and proximate result of Defendants’ wrongful acts, Plaintiff suffered damages, physical and mental
injuries including but not limited to severe emotional distress and anguish.
COUNT-13
RETALIATION PURSUANT TO BIVENS, 403 U.S. AT 397
(ALL DEFENDANTS)

57.

Plaintiff incorporates by reference herein all preceding and succeeding paragraphs as if fully set forth herein.

58.

All actions by Defendants as described under this complaint were also in retaliation against the Plaintiff for his
protected activity including but not limited to the Federal Lawsuit against some of the Defendants and complaint
with USDOJ against all the Defendants.

59.

Defendants’ actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants’ actions as described above will proximately cause immediate and further irreparable harm to Plaintiff.
COUNT-14
VIOLATION OF HATE CRIMES ACT OF ILLINOIS
(ALL DEFENDANTS)

>0.

Plaintiff incorporates by reference herein all precediiigfVl3$ s^eeceediug paragraphs as if fully set forth herein.

8

>1.

Defendants' actions as described above and specifically described in paragraphs 1-8 were due to their prejudice
towards Plaintiffs race, color, religion, national origin, ancestry, ethnicity, disabilities, and when the Defendants
threatened the Plaintiff with false arrest, false criminal charges, false imprisonment, monetary fine, contempt and
further restrictions in his ability to access courts in retaliation to the Plaintiff s protected activity as described above,
the Defendants committed intimidation and disorderly conduct against the Plaintiff due to their prejudice towards
*

1

f ,

Plaintiffs race, color, religion, national origin, ancestry, ethnicity, disabilities which is a violation of Illinois Hate
Crimes Act because intimidation is a predicate of the Hate Crimes Act of Illinois.

i2.

Defendants' actions as described under this count have caused irreparable physical and mental injuries to Plaintiff,
Defendants' actions as described above will proximately cause immediate and further irreparable harm to Plaintiff.
RELIEF REQUESTED
PLAINTIFF requests that:
A. The court enter an order declaring tiiat Defendants violated Section 504 of the. Rehabilitation Act of 1973, 1st 5th,
and 14* Amendments of die United States Constitution as alleged above;
B. The court enter an order declaring that Defendants committed threats of false criminal charges, false arrest, false
imprisonment, and committed disorderly conduct upon the Plaintiff as alleged above;
C. The court enter an order declaring that Defendants committed hate crimes upon the Plaintiff;
D. The court award Plaintiff compensatory damages in excess of $1000,000,00 for each count;
E. The court award Plaintiff punitive damages in excess of $1000,000.00 for each count;
F. The court enter an order that the Defendants immediately cease all the violations against the Plaintiff as alleged
above;
G. The court award Plaintiff his attorney fees and costs; and
H. The court enter an order granting any other relief as it deems equitable and just.
Dated-: September 22, 2021
Respectfully Submitted,
/s/Abdul Mohammed

VERIFICATION
Under penalties as provided by law pursuant to Section 1-109 of the Illinois Code of Civil Procedure, the
undersigned certifies that the statements set forth in this instrument are true and correct, except as to matters
therein stated to be on information and belief and as to such matters the undersigned certifies as aforesaid that he
verily believes the same to be true.
/s/ Abdul Mohammed,
258 East Bailey Rd., Apt. C
Naperville, IL 60565
Ph.630-854-5345

App 33

9

20-3178 Abdul Mohammed v. NLRB "Sanction order filed" (13-CA-16362)
CA07_CMECFMail@ca7.uscourts.gov <CA07_CMECFMail@ca7.uscourts.gov>
Mon 1/11/2021 9:17 AM
Jo:, aafnohammed@hotmail.com <aamohammed@hotmail.com>

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing.
Seventh Circuit Court of Appeals
Notice of Docket Activity
The following transaction was entered on 01/11/2021 at 9:00:51 AM CST and filed on 01/11/2021
Case Name:

Abdul Mohammed v. NLRB

Case Number:

20-3178

Document(s):

Documents)

Docket Text:
ORDER re: 1) Response to Court's Order to Show Cause. 2) Supplemental Response to Court's Order to
Show Cause. On December 29, 2020, this court dismissed this case for lack of jurisdiction and ordered
the appellant to show cause why he should not be sanctioned for continuing to file frivolous appeals.
The appellant has filed a response to this court's show cause order, but the response does not offer
anyjustification for his persistence in pursuing frivolous claims. Accordingly, Abdul Azeem
Mohammed has forfeited the privilege of proceeding in forma pauperis in any new or pending case, in
the district court or court of appeals, until he had paid, in full, all outstanding fees and costs for all of
his lawsuits. See In re City of Chicago, 500 F.3d 582, 583 (7th Cir. 2007); Campbell v. Clarke, 481 F.3d
967 (7th Cir. 2007). In any application to proceed in forma pauperis or motion to lift this restriction,
Mohammed must provide (under oath) a complete list of all of his federal suits and proof that all of
his financial obligations with respect to these suits have been met. See In re City of Chicago, 500 F.3d
at 583. In accordance with our decision in Mack, exceptions to this filing bar are made for criminal
cases and for applications for writs of habeas corpus. See Mack, 45 F.3d at 186-87. This order will be
lifted immediately once Mohammed makes full payment. See In re City of Chicago, 500 F.3d at 585-86.
Further, if Mohammed, despite his best efforts, is unable to pay in full all outstanding filing fees, he is
authorized to submit to this court a motion to modify or rescind this order no earlier than two years
from the date of this order. See id.; Mack, 45 F.3d at 186. MWR [11] [7133492] [20-3178] (AD)
Notice will be electronically mailed to:
Mr. Kevin Patrick Flanagan, Attorney
Mr. Abdul Azeem Mohammed
National Labor Relations Board

App 34

The following document(s) are associated with this transaction:
Document Description: Sanction Order
Original Filename: /opt/ACECF/live/forms/203178_c7_Order_Sanction_7133492_AmyDycus.pdf
Electronic Document Stamp:
[STAMBacecfStampJD=1105395651 [Date=01/11/2021] [FiieNumber=7133492-0]
[71ea797794ba4cc255956bb4fde712acde9ea3c47eed723b5c7f349f3705831ccca790bbc5cbcedeac0db
d98210d77887722bb88c4b62e8efdb220fac4c2beff]]
Recipients:
• Mr. Kevin Patrick Flanagan. Attorney
• Mr. Abdul Azeem Mohammed
• National Labor Relations Board

App 35

